Received 5/21/2019 7:54:23 PM Commonwealth Court of Pennsylvania
Pennsylvania
36Aled 5/21/2019 7:54:00 PM Commonwealth Court of1321
CD 2018
G
APPENDIX
IN THE COMMONWEALTH COURT OF PENNSYLVANIA

Mng Wei
Petitioner
No. 1321 CD 2018

v.
Pennsylvania State Civil Service
Commission (Department of
Health)
Respondent

APPLICATION FOR RECONSIDERATION

Peruse Rule 2543, the Petitioner Ming Wei ("Wei") respectfully requests that this
Court grants a reconsideration of the Order Entered on May 9, 2019 affirmed the Order
of the State Civil Service Commission ("Commission"), Wei requests reconsideration for
the following reasons.

I. Concision statement
1. Rule 2543 (2) held "Where the court has overlooked or misapprehended a fact
of record material to the outcome of the case" could be the reason for the application
for the reconsideration. Wei believes the Court to overlook or misapprehended the
facts and records material to the outcome of the case: A) The Court stated that the
Civil Service Act and GRAPP required to file the reconsideration (or rehearing) with
the knowing relevant documents for the initial Commission decision. Indeed, Wei

37a
filed the reconsideration with some key evidences for the initial Commission's
adjudication. However, the Commission denied his request after careful
consideration. B). The Commonwealth Court held that PADOH didn't admit it
never assigned Wei to convert HARS HIV/AIDS data yet. However, PADOH wrote
"PADOH never asked Ming Wei to convert HARS data". HARS data is the
abbreviation of HARS HIV/AIDS data. Indeed, PADOH never showed any record
that it ordered Wei to convert the HARS HIV/AIDS data. C) The Court stated that
"Wei failed to explain how the Department's business records upon which he now
relies were not available to him at the time of original proceeding before the
Commission", however, Wei explained the reasons in his brief.
II. Arguments
A) The Court stated that the Civil Service Act and GRAPP required to file the
application of the reconsideration (or rehearing) with the knowing relevant
documents for the initial Commission decision and let the Commission to consider.
Nevertheless, Wei filed an initial reconsideration in 2008 to the Commission and
stated "PADOH never assigned me to convert HARS HIV/AIDS data files", the
Commission stated that it reviewed all information including the attached documents
and made careful consideration but denied his request (See attached Doc. EE).
As PADOH claimed, it still failed to convert HARS HIV/AIDS data when Wei
was terminated. However, it was not Wei's responsibility. Now PADOH claimed that
2

39a
Commission's decision.
If PADOH didn't falsify that PADOH assigned Wei to convert HARS HIV/AIDS
data files as its just cause in its brief to this Court in 2008, the issue should be clear even
in 2008 and the Just cause did not exist, Wei must be reinstalled at that time.
Since PADOH never assigned his converting HARS HIV/AIDS data, it should be
very hard for Wei to find the evidence that PADOH did not do so. Instead, it was the
responsibility of that PADOH to show the evidence to support its just cause. However,
PADOH lawyers just insisted in their briefs but never showed any business record to
support its just cause of removal.
B) The Commonwealth Court stated "Wei again asserts that the Department
admitted in the federal case that he was never assigned the task of converting HARS
HIV/AIDS data files. We specifically rejected this argument in Wei III and we do so
again here for the reasons articulated in Wei DI".
However, PADOH wrote "PADOH never asked Ming Wei to convert HARS
data to PA NEDSS" to respond to Wei's material fact. According to the common civil
law, failure to submit a responsive statement that controverts the material facts
submitted by the moving party permits the Court to deem those material facts
admitted. Fed. R. Civ. P. 56(e)(2).
First, as this Court considered in Wei3, the HARS acronym refers to the
"HIV/AIDS Reporting System", since the HARS was exclusively for HIV/AIDS

4

40a
data, it is undisputable that HARS data is the abbreviation of HARS HIV/AIDS data.
Second, the pathway to collect HIV/AIDS cases was: raw HIV lab reports—*
potential cases (pre-HARS cases) (Doc. E, p7, 2017) —> Investigation by field
offices —> HARS data with quality control by the data management. In general,
HARS data were the end products, no further conversion for HARS data is needed.
Because PADOH decided to use PA-NEDSS under Bureau of Information
Technology ("BIT") to replace HARS as its active HIV/AIDS database since 2004,
to put all HARS data into PA-NEDSS became necessary. Then PADOH asked BIT
to convert HARS data into its PA-NEDSS by itself for a unified database, PADOH
had the business record for this task (Doc. B, p13, 2017).
In the federal court, PADOH also claimed: because Philadelphia didn't join
PA-NEDSS but continued to use HARS as its active database, PADOH ordered
several staffers to convert Philadelphia 2006 HARS HIV/AIDS data into
PA-NEDSS too. They worked for 4 months and brought only 362 records into
PA-NEDSS. Then the work was interrupted because of consuming too many
working hours, PADOH also had the business record for this assignment.
Indeed, whether PADOH admitted that it never assigned Wei to convert
HARS HIV/AIDS data should not been an issue. The issue is whether PADOH
assigned Wei to convert HARS HIV/AIDS data as it claimed to be the just cause of
removal. PADOH bears the burden of the proof about its just cause, however,

5

41a
PADOH never showed any record that it ordered Wei to converted the HARS
HIV/AIDS data except that its lawyers wrote PADOH did.
4.

Since PADOH claimed that HARS HIV/AIDS data was still failed to be
converted, this was Wei's duty by 2007 and why it terminated Wei from 2008 to 2017 to
this Court, this defamation made Wei a scapegoat of its failing to convert HARS
HIV/AIDS data. Because of the defamation, Wei not only couldn't be reinstalled for 11
years but also couldn't get any employment for 11 years. PADOH has certainly
committed the fraud.
Fraud upon the court is committed when a representative of the court —
lawyers, judges, referees — fraudulently present facts to the court that interfere with a
just and equitable decision making process. The outcome by fraud is not subject to
any statute of limitations to reverse (See Kenner v. C.I.R., 387 F.3d 689 (7th Cir,
1968; and Bullock v. United States, 763 F.2d 1115, 1121 (10th Cir. 1985).
C) The Court stated that "Wei failed to explain how the Department's
business records upon which he now relies were not available to him at the time of
original proceeding before the Commission". However, Wei explained the reasons
and even presented some records of that he was unaware of that until the discovery
of the federal case.
After Aug. 24, 2007, the date when PADOH orally suspended Wei for an
investigation, PADOH disallowed his accessing his PADOH's office any more.

6

42a
Although PADOH falsified that it didn't receive Wei's Aug 27, 2007 email, it added
several words on the top of his email to revoke his access for any PADOH's system
on the same day (Doc. BB, 48a). Wei has written followings in his last Petitioner
Brief:
"42. Then, PADOH sent a termination letter to Wei a week later. However, it
didn't start returning Wei's belongings that contained some key ernails and
documents until June 2009 though Wei repeatedly requested the returning".
"44. PADOH in Nov. 2007 filed a Motion to Quash Subpoena in part
and for a Protective Order in which it not only refused to release the key documents
that Wei subpoenaed but also claimed Wei wasn't allowed to present these relevant
documents to the hearing (Doc. A,1[52). PADOH also refused to exchange evidence
with Wei, many key documents that Wei filed in his motion to reopen could not be
obtained to be presented to the 2007 Commission hearing".
"46. During the discovery in a federal case, Wei received that PADOH's
admission that it never assigned HARS HIV/AIDS data to Wei, and many
contemporaneous business records that contradict its key testimonies and claims in
the initial state process."
"61. Wei in this motion specifically identified a sample of the documents that
Wei didn't know their existence at the time of the initial hearing in his third Motion
paragraphs 49-54 (a-f) [Doc. AA, 17a-18a]. Wei stated the following paragraphs in

7

43a
the motion.
By the way, Wei noticed this Court wrote "Wei does not understand that this
Court lacks access to the referenced entries on the docket in his federal case and,
because he has not provided them, these statements consist merely of bald
allegations lacking support" Wei3. Wei would explain in here, Wei originally filed
the third motion before the Commission, both PADOH and the Commission were
the Defendants and could access all documents of his federal case, however, they
didn't respond to these statements. Therefore, these statements deemed admitted.
Wei just wanted avoiding the redundancies by unadding the real documents when he
filed them to this Court.
I

III. Conclusion
Because the Court overlooked or misapprehended some facts of record
material to the outcome of the case, the case should be reconsidered.

Respectfully Submitted:
/s/Ming Wei
Ming Wei
3910 Silver Brook Dr.
Mechanicsburg, PA 17050
Phone (717) 732-2040
mingweiebct@hotmail.com
05/21/2019

8

.A00NWEAL44a0F PENNS ill,
new/A

Ow.

t
JEFFREY T. WALLACE
Executive Director

MARWAN KREIDIE
Chairman
JAMES W. MARTIN
Commissioner

STATE CIVIL SERVICE COMMISSION

KATHERENE E. HOLTZINGER CONNER, Esq.
Commissioner

MICHAEL J. SULLIVAN
Deputy for Operations

P.O. Box 569
Harrisburg, PA 17108-0589

April 3,2008
(717) 783-2924
FAX (717) 772-5120
Mr. Ming Wei
3910 Silver Brook Drive
Mechanicsburg, Pennsylvania 17050
RE:

Mina Wei v. Department of Health
SCSC Appeal No. 25485

Dear Mr. Wei:
The State Civil Service Commission, at a regular meeting, reviewed all information
presented by you on your Request for Reconsideration and any attachments or additional
documents. The Commission, after careful consideration, hereby denies your request and
reaffirms its previous Order.
Sincerely,

Marwan Kreidie
Chairman
MAILED: April 3, 2008

•

cc: Tanya C. Leshko, Esquire
Sheryl Cebular
.
Pam Yetter

Doc. EE, 1 a

Additional material
from this filing is
available in the
Clerk's Office.

